U.S. Department of Justice
Office of the Inspector General




          Report of Investigation Regarding
             Allegations of Mishandling of
               Classified Documents by
          Attorney General Alberto Gonzales




                                  Office of the Inspector General
                                  Oversight and Review Division
                                              September 2, 2008
                                     TABLE OF CONTENTS

I.     INTRODUCTION ............................................................................... 1

II.    BACKGROUND ................................................................................. 2
       A.      Gonzales’s Professional Background........................................ 2
       B.      Overview of National Security Information Classification.......... 3
       C.      Security Facilities Available to Gonzales as Attorney General
               for the Handling of Classified Materials ................................... 4
               1.      Justice Department ....................................................... 4
               2.      Gonzales’s Residences.................................................... 5
       D.      Security Briefings Received by Gonzales as White House
               Counsel and as Attorney General ............................................ 7

III.   GONZALES’S HANDLING OF CERTAIN CLASSIFIED DOCUMENTS... 8
       A.      Creation and Handling of the Handwritten Notes as
               White House Counsel .............................................................. 8
       B.      Gonzales’s Handling of the Handwritten Notes After He
               Was Sworn In As Attorney General ........................................ 11
       C.      Gonzales’s Handling of the Notes and Other SCI Documents
               as Attorney General............................................................... 14
               1.      OAG practices concerning the OAG safe ....................... 14
               2.      Gonzales’s statements to White House attorneys and
                       Justice Department officials about the notes................ 17
               3.      Storage of other TS/SCI documents ............................. 20

IV.    OIG ANALYSIS................................................................................ 21
       A.      Gonzales Took the Classified Notes to His Residence ............. 22
       B.      Storing the Notes and Other TS/SCI Materials Outside of a
               SCIF...................................................................................... 25
       C.      Justice Department Security Regulations .............................. 26

V.     CONCLUSION................................................................................. 28
I.    INTRODUCTION

       This report describes the investigation by the Department of Justice
Office of the Inspector General (OIG) into allegations that Alberto Gonzales
mishandled classified documents while serving as the Attorney General. The
matter was referred to the OIG by Kenneth Wainstein, former Assistant
Attorney General for the National Security Division, on August 10, 2007. The
White House Counsel’s Office had initially notified the Department of Justice
(Department) about the matter, and Wainstein, after consultation with other
senior Department officials, referred the matter to the OIG for investigation.

      The allegations initially concerned Gonzales’s handling of a document
that contained classified information about a sensitive intelligence program
generally referred to in this report as the NSA surveillance program. The
surveillance program is administered by the National Security Agency (NSA)
and is classified at the Top Secret/Sensitive Compartmented Information
(TS/SCI) level.

       During the course of the OIG investigation, we learned of several other
classified documents that Gonzales may have mishandled. Most of these
documents also concerned the NSA surveillance program. Other documents
concerned a detainee interrogation program also classified at the TS/SCI level.
We investigated Gonzales’s handling of these documents as well.

       To conduct this investigation, the OIG interviewed Gonzales on three
occasions. Gonzales voluntarily agreed to an initial interview and two follow-up
interviews. We also interviewed attorneys in the White House Counsel’s Office,
members of Gonzales’s staff within the Office of the Attorney General (OAG),
and other officials in the Department knowledgeable about the handling of
classified documents in general and the handling of the specific documents at
issue in this investigation. We also reviewed all of the classified documents at
issue in this matter.

       The classified materials that are the subject of this investigation consist
of notes that Gonzales drafted to memorialize a classified briefing of
congressional leaders about the NSA surveillance program when Gonzales was
the White House Counsel; draft and final Office of Legal Counsel opinions
about both the NSA surveillance program and a detainee interrogation
program; correspondence from congressional leaders to the Director of Central
Intelligence; and other memoranda describing legal and operational aspects of
the two classified programs.

        This report summarizes the results of the OIG’s investigation. Section II
provides background information related to this matter, including an overview
of classification issues for National Security Information, a description of the
facilities available to Gonzales as Attorney General for storing classified

                                        1
                                        1
information, and a summary of pertinent security briefings provided to
Gonzales as White House Counsel and as Attorney General.

       In Section III of this report we discuss the facts surrounding Gonzales’s
creation and handling of the classified handwritten notes that caused this
matter to be referred to the OIG, as well as his handling of the other classified
documents at issue in this matter. We also include a discussion of Gonzales’s
familiarity with and use of the facilities available to him for the storage of
classified materials.

      In Section IV we provide our analysis of Gonzales’s actions regarding the
handling of the classified material. Section V contains our conclusions.

       In sum, our investigation concluded that Gonzales mishandled classified
materials regarding two highly sensitive compartmented programs. We found
that Gonzales took his classified handwritten notes home and stored them
there for an indeterminate period of time. The notes contained operational
aspects and other information about the NSA surveillance program that is
classified at the TS/SCI level. By regulation, such material must be stored in a
Sensitive Compartmented Storage Facility (SCIF). At the time he took these
materials home, Gonzales did not have a SCIF at his house. Although
Gonzales did have a safe at his residence at this time, we found that he did not
use it to store the notes.

      We also found that Gonzales improperly stored other highly classified
documents about the two compartmented programs in a safe at the
Department that was not located in a SCIF. Several employees in the OAG had
access to the safe where Gonzales stored the documents even though they
lacked the necessary security clearances for this information. We concluded
that Gonzales’s mishandling of both the notes and the other classified
documents violated Department security requirements and procedures.


II.   BACKGROUND

      A.    Gonzales’s Professional Background

      After serving as a partner in a Texas law firm, Alberto Gonzales served as
General Counsel to the Governor of Texas, George Bush, from 1995 to 1997.
From 1997 to 1999, he served as the Texas Secretary of State. In 1999,
Governor Bush appointed Gonzales to the Texas Supreme Court. Gonzales
served as White House Counsel for President Bush from January 2001 until
February 3, 2005, when Gonzales was sworn in as Attorney General. Gonzales
resigned as Attorney General on September 17, 2007.




                                        2
                                        2
      B.     Overview of National Security Information Classification

       According to Executive Order 12958, as amended, (EO 12958, as
amended) National Security Information can be classified at one of the
following three levels: 1

      “Confidential” applies to “information, the unauthorized disclosure
      of which reasonably could be expected to cause damage to the
      national security that the original classification authority is able to
      identify or describe.”
      “Secret” applies to “information, the unauthorized disclosure of
      which reasonably could be expected to cause serious damage to
      the national security that the original classification authority is
      able to identify or describe.”
      “Top Secret” applies to “information, the unauthorized disclosure of
      which reasonably could be expected to cause exceptionally grave
      damage to the national security that the original classification
      authority is able to identify or describe.”

       Access to classified material may be further restricted if the material
pertains to a Special Access Program, defined as “a program established for a
specific class of classified information that imposes safeguarding and access
requirements that exceed those normally required for information at the same
classification level.” Information concerning a Special Access Program is
referred to as Sensitive Compartmented Information or SCI information.

       Classified information may be compartmented within a classification
level. Thus, TS/SCI is information classified at the Top Secret (TS) level that is
subject to the enhanced controls applicable to Sensitive Compartmented
Information. For instance, TS material must either be “under the personal
control of an authorized or appropriately cleared person” or “guarded or stored
in a locked security container,” typically a General Services Administration-
approved safe. See DOJ Security Program Operation Manual at 6-202.
However, SCI material must be stored in a SCIF irrespective of its classification
level. According to Director of Central Intelligence Directive No. 6/9 (Nov. 18,
2002), a SCIF is a specially constructed room or other structure “intended to
prevent as well as detect visual, acoustical, technical, and physical access by
unauthorized persons.”

       Under EO 12958, as amended, classified information at any level may be
either “original” or “derivative.” Original classification means that an initial


       1 Executive Order 12958 (April 17, 1995), was amended by Executive Order 13292

(March 25, 2003).



                                            3
                                            3
determination has been made that the “information requires, in the interest of
national security, protection against unauthorized disclosure.” Derivative
classification refers to “incorporating, paraphrasing, restating or generating in
new form information that is already classified.” Derivative classified
information must be marked in a manner consistent with the markings of the
source information and handled in accordance with the original classification
decisions. See also 28 C.F.R. § 17.26(a)(persons need not possess original
classification authority to derivatively classify information based on source
documents or classification guides).

      Each component within the Department, including the OAG, has a
Security Programs Manager (SPM) available to provide guidance to employees
on the proper handling and storage procedures for classified information.
According to DOJ Order 2600.2C, SPMs are responsible for “the management
and coordination of all Department security programs and plans within their
respective organizations.” These responsibilities include ensuring that
employees “are fully informed and periodically reminded of their
responsibilities” concerning Department security programs, and “[o]bserving,
enforcing, and when necessary, implementing security regulations or
procedures pertaining to the classification, . . . safeguarding, handling, and
storage of classified national security information, SCI, and other DOJ sensitive
material.”

       C.     Security Facilities Available to Gonzales as Attorney General
              for the Handling of Classified Materials

              1.      Justice Department

       The Office of the Attorney General (OAG) is located in the Robert F.
Kennedy Main Justice Building in Washington, D.C. The Attorney General’s
staff occupies offices along two corridors emanating from the Attorney
General’s suite. 2 According to the SPM for the OAG, there are five safes and
one SCIF in the OAG. 3 The SPM and other OAG witnesses stated that one safe
is located in a small office within the Attorney General’s suite, and the other
four are located in other offices throughout the OAG. These five safes are

       2 For purposes of this report, we refer to the Attorney General’s personal office and
adjacent offices used by his personal and special assistants as the “Attorney General’s suite.”
       3  The SPM for the OAG is also the OAG Office Manager. She told the OIG that her
duties as SPM include managing requests for security clearances and ensuring that classified
material is handled properly. She also said she ensures that security codes to equipment and
offices are changed when necessary and acts as the OAG’s liaison with the Department’s
Security Office. The SPM stated that while she is available to answer questions regarding the
proper handling of classified materials and other security issues, she does not provide security
briefings to OAG staff. Rather, these briefings are handled by the Department’s Security and
Emergency Planning Staff (SEPS).



                                               4
                                               4
certified for storing materials classified up to the TS level, but they cannot be
used to store SCI material because they are not housed within a SCIF. The
safe in the small office within the Attorney General’s suite is significant to this
investigation because it is where Gonzales acknowledged to the OIG he stored
the handwritten notes and other SCI documents described in this report. We
refer to this safe in this report as the OAG safe.

       The SPM told us that the OAG also has a small storage SCIF, containing
two additional safes, which is located approximately five offices down a corridor
from the Attorney General’s personal office. The SPM stated that the SCIF was
the only facility available to Gonzales within the OAG certified for the storage of
SCI materials, a fact confirmed to us by the Director of the Department’s
Security and Emergency Planning Staff (SEPS). 4 Both the SPM and the SEPS
Director told the OIG that the Justice Command Center, a SCIF facility located
one floor above the OAG and available to Gonzales, was also certified for
storage of SCI materials. 5

              2.     Gonzales’s Residences

      During his tenure as the Attorney General, Gonzales first lived at a
residence in Vienna, Virginia. Gonzales stated that in August 2005 he moved
to another residence in the Washington area.

       The OIG interviewed a Program Manager for the Department’s Technical
Surveillance Countermeasures Program who was responsible for the
installation and removal of security equipment for senior Department officials,
including Gonzales. The Program Manager told the OIG that as White House
Counsel, Gonzales had been provided with a safe and a shredder by the
Executive Office of the President (EOP) at his Vienna, Virginia residence. 6

       Gonzales became the Attorney General on February 3, 2005. According
to the Program Manager, on February 26, 2005, all White House security
equipment provided to Gonzales for his residence, with the exception of the
EOP safe, was removed and replaced with DOJ equipment.

      The Program Manager stated that in order to minimize traffic in and out
of Gonzales’s residence, he arranged with the EOP’s Security Office to keep the


       4SEPS is responsible for developing policy, methods, and procedures for the
implementation of security programs for the Department.
       5 The Justice Command Center is a secure 24-hour facility that operates in support of

the Department’s law enforcement and national security programs.
       6 The Program Manager stated that the White House Communications Agency had also
supplied Gonzales with a secure phone and a secure facsimile machine for his Vienna
residence.



                                              5
                                              5
EOP safe at Gonzales’s residence and to reimburse the EOP with a DOJ safe.
Although an e-mail from the Program Manager to his supervisor indicates that
Gonzales was at home on February 26, 2005, when the White House
equipment was removed from his residence, Gonzales told the OIG that he had
no recollection of the removal of the White House equipment and the
installation of the DOJ equipment, and that he was unaware of the decision to
retain the White House-provided safe at his residence.

      The Program Manager said that in early March 2005 a member of
Gonzales’s security detail called him to ask for the combination to Gonzales’s
safe because Gonzales could not open it. 7 The Program Manager told us he
attempted to find out the combination to the safe from the EOP but that the
EOP had no records matching the bar code and serial number for Gonzales’s
safe. The Program Manager said he also tried the factory default setting for the
combination, as well as several variations of that setting, without success.

       The Program Manager also provided the OIG with a March 15, 2005, e-
mail from an EOP official to him stating that “[t]he AG’s assistant . . . said the
AG does not know the combination either.” The assistant referenced in the e-
mail told the OIG that she had no recollection of discussing this safe or its
combination with Gonzales.

      Gonzales told the OIG that he had no specific recollection of ever using
the White House-provided safe in his Vienna residence, and in any event did
not recall whether the safe was suitable for the storage of TS material.
Gonzales also said he did not recall whether Department or FBI security
personnel were unable to open the safe, nor did he recall being asked by
anyone for the combination to it. Gonzales also said he did not recall being
asked for the combination by his assistant, but stated that he had no reason to
dispute that the assistant had indicated that Gonzales did not know the
combination. He said it was possible he had forgotten the combination to the
safe.

      Gonzales moved to a new residence in the Washington area in August
2005. According to the Program Manager, the EOP safe was removed from
Gonzales’s former residence, still unopened, and eventually returned to the
White House. Both the Program Manager and the Director of SEPS stated that
on August 12, 2005, Gonzales’s secure telephone, facsimile machine and
shredder were moved to the new residence and a new Department safe was



       7  According to the Program Manager, the security detail thought that the Program
Manager had reset the combination to the safe at some point. However, the Program Manager
told the detail that he had not done so and that the combination to the safe should have been
the same as it was before the Department’s involvement.



                                              6
                                              6
installed there. 8 The Director of SEPS told the OIG that the Department safe
was certified for the storage of materials up to the TS level but could not be
used to store SCI materials because the safe was not housed within a SCIF.
The Director also stated that the Department never constructed a SCIF in
Gonzales’s residences.

       D.     Security Briefings Received by Gonzales as White House
              Counsel and as Attorney General

      The White House Counsel’s Office informed the OIG that Gonzales
received an SCI briefing on January 17, 2001, just prior to becoming the White
House Counsel. Gonzales received his formal TS/SCI clearance in the White
House on January 23, 2001. Gonzales acknowledged in his interview with the
OIG that all White House personnel receive a security briefing about
procedures “consistent with handling classified information.” However, he said
that he did not recall this general briefing or a briefing specifically concerning
SCI at the White House. The OIG confirmed through the White House
Counsel’s Office that Gonzales signed a form acknowledging that he received
an SCI briefing on January 17, 2001. 9

      Gonzales also received another SCI security briefing when he became
Attorney General. Gonzales was confirmed by the Senate on February 3, 2005,
and was sworn in as Attorney General that day. During the evening of
February 3, Gonzales received an SCI briefing in the Justice Command Center
to authorize his access to several Special Access Programs.

       According to the Director of SEPS, who was present at the briefing, the
briefing consisted of a PowerPoint presentation explaining the rights and
obligations of persons with SCI clearance, how SCI material must be stored
and under what conditions SCI can be discussed, proper SCI document control
and transmission, and proper communication and processing of SCI material.
The OIG reviewed the PowerPoint presentation given to Gonzales during his
briefing. Of particular relevance to this investigation, the presentation covered
the requirement that SCI can be discussed and stored “only in an accredited
SCI facility (SCIF)” and also advised that after-hours storage of SCI is available
at the Justice Command Center.

     Immediately following the briefing, Gonzales signed a Form 4414 SCI
Nondisclosure Agreement. In signing the SCI Nondisclosure Agreement,
Gonzales affirmed that he “received a security indoctrination concerning the

       8 The safe was removed from this residence on September 17, 2007, upon Gonzales’s

resignation as Attorney General.
       9 The White House Counsel’s Office was unable to provide us more details on the

contents of the White House SCI briefing for Gonzales.



                                             7
                                             7
nature and protection of SCI,” and had “been advised that the unauthorized
disclosure, unauthorized retention, or negligent handling of SCI . . . could
cause irreparable injury to the United States or be used to advantage by a
foreign nation.” The OIG showed Gonzales a copy of his signed SCI
Nondisclosure Agreement, and he confirmed that the signature on the
document was his.

       Despite his acknowledgement of his signature on the Nondisclosure
Agreement form, Gonzales told us he did not recall attending any security
briefings upon becoming Attorney General, including the briefing he received
on his first day as the Attorney General in connection with receiving his
TS/SCI security clearance at the Department and his signing the SCI
Nondisclosure Agreement. However, during his OIG interview, Gonzales stated
to us that he had a “general understanding” of the proper handling of SCI
material and said that he “understood the importance of handling classified
information,” especially after the September 11, 2001, terrorist attacks.
Gonzales also stated that he understood his obligations as Attorney General
and that he needed to “lead by example” in his handling of sensitive materials.


III.   GONZALES’S HANDLING OF CERTAIN CLASSIFIED DOCUMENTS

      In this section of the report, we discuss the facts surrounding Gonzales’s
creation and handling of the handwritten notes about the NSA surveillance
program, his handling of other classified documents about the NSA program
and a detainee interrogation program that Gonzales had acquired during his
tenure as Attorney General, and his familiarity with and use of the facilities
available to him for the proper handling of these documents.

       A.     Creation and Handling of the Handwritten Notes as White
              House Counsel

       Early in his tenure as White House Counsel, Gonzales worked with
officials in the Intelligence Community on the NSA surveillance program.
Gonzales told us that he was personally involved in the creation and
development of the program and thus was not formally “read in” to the program
as subsequent participants were. 10

      As a consequence of Gonzales’s involvement with the NSA surveillance
program both as White House Counsel and as Attorney General, Gonzales
reviewed numerous documents marked as TS with SCI designations concerning

       10  The process of being “read in” to a compartmented program generally entails
receiving a briefing about the program followed by a formal acknowledgement of the briefing,
usually indicated by the signing of a Nondisclosure Agreement binding the individual to
obligations regarding the handling and use of information concerning the program.



                                              8
                                              8
the NSA surveillance program before and after March 2004 when he drafted the
notes at issue in this matter. Regarding his understanding of the classification
of the NSA surveillance program, Gonzales told the OIG that he knew it was
“very, very limited access.” However, he stated he could not say whether the
program was TS or TS/SCI, although he said he knew it was of the highest
level of secrecy. 11 Gonzales said he “assumed” documents related to the
program bore classification markings that would have indicated the precise
classification of the program, but that he did not create such documents, so he
could not be certain.

       One of the documents at issue in this investigation is Gonzales’s
handwritten notes that he created in connection with a dispute between the
Department and the White House concerning the legal reasoning supporting
the NSA surveillance program. According to public testimony before
congressional committees, then-Attorney General John Ashcroft had been
hospitalized with acute pancreatitis on March 4, 2004, and Deputy Attorney
General James Comey, as Acting Attorney General, would not certify the
legality of a Presidential order to reauthorize the surveillance program.
Gonzales told the OIG that on March 10, 2004, a meeting was held to inform
congressional leaders of Comey’s position and to explore legislative solutions to
the impasse.

       On the afternoon of Wednesday, March 10, 2004, Gonzales and other
White House and intelligence agency officials, including the Vice President and
NSA Director Michael Hayden, convened an “emergency meeting” in the White
House Situation Room with Senate Majority and Minority Leaders Bill Frist and
Tom Daschle; Senate Select Committee on Intelligence Leader Pat Roberts and
Ranking Member Jay Rockefeller; Speaker of the House Dennis Hastert and
House Minority Leader Nancy Pelosi; and House Permanent Select Committee
on Intelligence Chairman Porter Goss and Ranking Member Jane Harman. 12
See Transcript of Gonzales’s Testimony before the Senate Judiciary Committee,
July 24, 2007. Gonzales told the OIG that in addition to a discussion of
Comey’s decision not to certify the program, the congressional leadership
briefing also included a description of certain operational details of the
surveillance program. Gonzales stated that he did not recall what briefing
materials were used during the meeting or whether there were any indications




        11 Gonzales publicly has described the program as “one of the most highly protected

[programs] in the United States government” and as a “very, very secretive, protected program.”
See, e.g., Transcript of Attorney General Interview on CBS Early Show, December 19, 2005,
available at http://www.usdoj.gov/ag/readingroom/surveillance.htm.
       12   This group of Congressional leaders was known informally as the “Gang of Eight.”



                                               9
                                               9
that the meeting concerned a TS/SCI program. 13 He stated that the meeting
was held in the White House Situation Room, which is a SCIF.

       Gonzales told the OIG that President Bush directed him to memorialize
the March 10, 2004, meeting. Gonzales stated that he drafted notes about the
meeting in a spiral notebook in his White House Counsel’s Office within a few
days of the meeting, probably on the weekend immediately following the
meeting. Gonzales stated that he wrote the notes in a single sitting except for
one line, which he told us he wrote within the next day. Gonzales said that his
intent in drafting the notes was to record the reactions of the congressional
leaders during the meeting, as opposed to recording any operational details
about the program that were discussed. In the notes, Gonzales listed who was
present, followed by a general summary of the briefing given to the
congressional leaders by intelligence agency officials, and the congressional
leaders’ responses to the briefing. However, Gonzales’s summary also
referenced TS/SCI operational aspects of the program by his use of specific
terms associated with the program. The notes also included the SCI codeword
used to identify the program. Gonzales did not apply any classification
markings to the notes. 14

      Gonzales told the OIG that he stored the notes in his safe in the West
Wing of the White House, a location Gonzales described as very secure and
accessible only by himself and possibly his confidential assistant. 15 He said he
regarded the notes as “sensitive” because the President had asked him to write
them, and accordingly he “treated [the notes] as classified.” However, Gonzales
said he did not recall thinking that the notes were classified and said that he
did not think to mark the notes as classified. Gonzales told the OIG that he
used two envelopes to double-wrap the notes. Gonzales stated he may have
written an abbreviation for the codeword of the program on the inner envelope.

        13 An NSA official who was present at this briefing told the OIG that briefing materials

about the NSA surveillance program were handed out to the participants at the briefing and
that these materials were marked as TS with SCI designations. The OIG reviewed a copy of the
briefing materials and confirmed the presence of the TS/SCI markings.
       14  In July 2007, after several Department and White House officials became aware of
Gonzales’s notes, the notes were reviewed by two NSA officials, one of whom is an Original
Classifying Authority for the NSA surveillance program, to determine whether the notes include
any classified information. The NSA officials determined that 3 of 21 paragraphs in the notes
contain SCI information about the NSA surveillance program, 1 paragraph contains SCI
information about signals intelligence, and the remaining paragraphs are unclassified. These
NSA officials told the OIG that the three paragraphs about the NSA surveillance program
contain SCI information based on references to operational aspects of the program as well as
the use of the codeword for the program in conjunction with these operational aspects. The
other information included in the notes that was deemed classified by the NSA cannot be
described in this unclassified report.
       15 Gonzales told the OIG he was fairly certain his confidential assistant would not have

been briefed in to the NSA surveillance program referred to in the notes.



                                              10
                                              10
On the outer envelope Gonzales said he wrote “AG – EYES ONLY – TOP
SECRET.”

      Gonzales stated that he stored the notes in the White House safe through
the remainder of his tenure as White House Counsel. According to White
House attorneys interviewed by the OIG, the safe used by Gonzales was located
in the office assigned to the White House Counsel, which is a SCIF.

      B.    Gonzales’s Handling of the Handwritten Notes After He Was
            Sworn In As Attorney General

      On the afternoon of February 3, 2005, Gonzales was sworn in as the
Attorney General. Gonzales told us that on that day he personally took the
handwritten notes, still double-wrapped, from the White House to the Justice
Department after his swearing-in at the White House. Gonzales said he arrived
at the Justice Department in the early evening accompanied by his FBI
security detail, two White House aides, and his wife. He told the OIG that he
did not recall whether any OAG staff were present when he arrived at the
Attorney General’s suite. Gonzales said that his White House possessions had
been moved to the Department in boxes, but could not recall who had moved
them. He stated that he would not have placed the handwritten notes in any of
these boxes, and would have kept them in his briefcase during the ride from
the White House to the Department. Gonzales told us he did not recall how
long he remained at the Department on the evening of his swearing-in.

       Gonzales stated he could not recall where he stored the notes after he
arrived at the Department. Gonzales described to us the OAG safe located in
the office just outside the Attorney General’s office, but stated that he did not
recall accessing the safe or receiving the combination to this safe or giving the
notes to anyone to store while at the Department that evening.

      We therefore sought to determine whether anyone who was with
Gonzales on the night he first arrived at the Department opened the safe for
him to store the notes. We found no evidence that anyone did so. The OAG
SPM told us that she and several other OAG staff were present in the suite
when Gonzales moved in that evening. The SPM said that she was the only
person there who had the combination to the safe when Gonzales was at the
Department that evening. She said that she did not give the combination to
anyone that evening, and never provided the combination to or opened the safe
for Gonzales. The SPM also told us that Gonzales did not ask her to open the
safe or any other storage facility for him that evening.

      We determined through witness testimony that a total of four White
House aides may have accompanied Gonzales to the Department on the
evening of February 3, 2005. Both Gonzales and the SPM told us that at least
two of Gonzales’s aides from the White House Counsel’s Office accompanied


                                        11
                                        11
Gonzales to the Department that evening. One of these aides served as
Gonzales’s first special assistant for his first 4 months as Attorney General.
This first special assistant told us she received the combination to the safe
from the SPM within the first couple of days after February 3, 2005, but not on
that evening. She also told us she may have given the combination to Gonzales
after she received it, and that he personally accessed the safe on a daily basis
during her 4-month tenure as his special assistant. She stated that she never
accessed the safe during this period, and that Gonzales generally maintained
and stored his own documents, including classified documents.

      Another aide who may have accompanied Gonzales to the Department
that evening became Gonzales’s first personal assistant in the OAG. He told us
through his counsel that he did not specifically recall whether he came to the
Department with Gonzales on the evening of February 3, 2005. However, the
aide also stated that he did not recall ever receiving a combination to any safe
within the OAG. 16

       During the OIG’s initial interview with Gonzales, we asked him whether
he took the notes home with him that evening. Gonzales said he did not recall.
However, he also said that if he did not have the ability to store the notes in the
safe outside his OAG office that evening, he would have taken the notes home
“of necessity.” Gonzales said that if he took the notes home, he would have left
the notes in his briefcase in his office at his residence, adding that he did not
recall if he had a safe in his residence at that time. Gonzales said that the
briefcase in which he would have kept the notes had a lock, but that he did not
always use the lock.

       Subsequent to our initial interview with Gonzales, and as described
above, the OIG learned that Gonzales did have a safe in his Vienna residence
but that in early March 2005 Department officials became aware that Gonzales
could not open it. When we informed Gonzales of these facts in a subsequent
interview, Gonzales stated that he had no specific recollection of ever using the
safe in his Vienna residence. 17 We asked him whether these facts concerning
the safe in his Vienna residence changed his recollection of how he handled the
notes on February 3, 2005, and he said they did not.

       16  The OIG determined through witness testimony that a third White House aide may
have also accompanied Gonzales to the Department that evening. This third aide also joined
the OAG upon Gonzales’s confirmation as Attorney General. He told us that he did not recall
whether the office just outside of Gonzales’s office contained a safe, and in any event did not
recall receiving the combination to that safe. The fourth aide identified by witnesses as
accompanying Gonzales to the Justice Department that evening told us he was not aware of or
did not recall a safe in the office by Gonzales’s office and in any event never received a
combination to it.
       17 Because the notes contained SCI material, Gonzales was required to store them in a
SCIF, a feature his residence did not have.


                                              12
                                              12
      Gonzales said that if he brought the notes home with him, he would have
brought them back to the Department the next day and had them stored in the
safe outside his office. However, he said he had no specific recollection of
doing so. In addition, the SPM told us that she was the only person in the OAG
with the combination to the OAG office safe for some period of time after
Gonzales arrived, although she could not recall the duration of this period. As
noted, the SPM told us she never provided Gonzales with the combination to
the safe. As also discussed, the first special assistant told us that she received
the combination to the safe from the SPM within the first couple of days after
February 3, 2005, and that she may have given it to Gonzales at some point
thereafter.

       We also asked Gonzales why on that first evening he did not leave the
notes in the Justice Command Center, a facility available to him for storage of
TS/SCI materials. Gonzales responded that he did not recall thinking about it,
and that he might not have “felt comfortable” leaving the notes there at that
time. However, as noted above, during Gonzales’s SCI briefing that he received
that first evening, he was informed that after-hours storage of SCI materials
was available at the Justice Command Center.

      We also asked Gonzales why he removed the notes from the White House
in the first instance. Gonzales said his decision to take the notes with him
when he left the White House was “instinctive,” and that he wanted to “protect”
the notes. He also stated that his decision to take the notes was in part based
on the fact that he was remaining with the federal government and would
continue to be involved with the NSA surveillance program as Attorney
General. Gonzales said that these were the only materials related to the NSA
surveillance program that he brought with him from the White House, and that
he always handled the notes himself and did not allow anyone else to handle
them.

      However, Gonzales also stated that he considered the notes to be a
“Presidential record.” 18 Gonzales said he did not seek permission from White
House officials to take the notes from the White House when he became
Attorney General, and no one at the White House knew he had taken them
with him.



       18   The Presidential Records Act of 1978 governs the custody and management of official
Presidential and Vice Presidential documents. See 44 U.S.C. §§ 2201-2207. “Presidential
records” are defined, in relevant part, as “documentary materials . . . created or received by the
President, his immediate staff, or a unit or individual of the Executive Office of the President
whose function is to advise and assist the President, in the course of conducting activities
which relate to or have an effect upon the carrying out of the constitutional, statutory, or other
official or ceremonial duties of the President.” Id. at § 2201(2).



                                               13
                                               13
      C.    Gonzales’s Handling of the Notes and Other SCI Documents as
            Attorney General

            1.    OAG practices concerning the OAG safe

       Gonzales told the OIG that at some point after he became Attorney
General – whether on the night of his swearing-in or some time thereafter – he
stored the handwritten notes and the other TS/SCI materials at issue in this
investigation in the OAG safe located in the office just outside his personal
office. Gonzales said he knew that was where he stored these notes because he
retrieved them from the safe sometime in May or June 2007 in connection with
a congressional hearing about the NSA surveillance program. Gonzales also
said that he retrieved these other documents from the safe to give to the
Department’s Office of Legal Counsel shortly before his departure as the
Attorney General.

      Gonzales told the OIG he believed it was appropriate to store the
documents in the safe outside his office, and that he had never been told
otherwise. He described the Attorney General’s suite where the safe was
located as a “very secure area” with “very limited access.” However, with the
exception of the notes, all of the documents at issue in this investigation had
cover sheets and header and footer markings indicating they were TS with SCI
designations and, as noted above, the safe was not authorized for the storage of
TS/SCI materials because it was not located in a SCIF.

      We asked Gonzales what he knew about the storage requirements for
TS/SCI information. Gonzales told us he was aware that TS/SCI may only be
discussed with others cleared to have access to the information, and that
TS/SCI materials must be marked and stored in a particular way. However,
Gonzales stated that while serving as Attorney General he was not aware that
TS/SCI material had to be stored in a SCIF, although he has since been made
aware of this requirement. In addition, as noted above, Gonzales told the OIG
that he did not remember receiving the SCI briefing in February 2005, although
he acknowledged his signature on the SCI Nondisclosure Agreement form.
That briefing, which he attended on the day he brought the notes to the
Department, included instruction on the requirement that TS/SCI information
must be stored in a SCIF.

       Gonzales also told the OIG that he was unaware that the OAG had a
SCIF. During his interview with the OIG, he asked us to point out its location
on a floor plan. (The SCIF is located approximately five offices down a corridor
from the Attorney General’s personal office.) The OAG SPM told us that she
could not recall whether she ever informed Gonzales of the SCIF’s existence or
location.




                                       14
                                       14
       We also sought to determine who besides Gonzales had the combination
to or otherwise had access to the contents of the safe in which he stored the
handwritten notes regarding the NSA surveillance program and the other
TS/SCI documents. The SPM stated that one of Gonzales’s personal assistants
and his two special assistants had the combination to the safe. 19 The SPM
said she seriously doubted that employees other than the personal assistant
and special assistants would have been allowed access to this safe, but stated
she could not be certain the combination had not been given to others. The
SPM also said that although she and her backup SPM had the combination to
this safe, neither had ever opened it.

      We determined through the NSA that none of the persons besides
Gonzales who had the combination to the safe where he stored the notes and
other TS/SCI documents had been read into the NSA surveillance program.
We also determined that those having access to the safe in the OAG over
Gonzales’s tenure included his five special and personal assistants, the SPM,
and the back-up SPM. We asked Gonzales whether he knew if any of his
assistants had been read into the NSA surveillance program. He told us that
he did not know, but expressed doubt that they had been.

      We interviewed the special assistant who worked for Gonzales from mid-
2005 through August 2007, the month before Gonzales resigned as Attorney
General, as well as the personal assistant who worked for Gonzales from
August 2006 through Gonzales’s departure as Attorney General. The special
assistant stated that Gonzales handled very few classified documents on a day-
to-day basis, and that she had primary responsibility for facilitating the proper
storage of these materials. She stated that she had no knowledge of Gonzales
maintaining classified materials anywhere in the OAG other than in the OAG
safe by his office.

       Gonzales and his special and personal assistants gave us varying
accounts of the extent to which the assistants retrieved documents from the
OAG safe for Gonzales. Gonzales told us he never asked his assistants to
retrieve materials from the safe for him because he did not think they would be
able to identify what he needed. Consistent with Gonzales’s recollection, the
special assistant during Gonzales’s first 4 months as Attorney General stated
that she never accessed the safe during this period. Further, the personal
assistant who worked for Gonzales from August 2006 through the end of
Gonzales’s tenure at Attorney General told us he did not recall retrieving
documents from the safe for Gonzales. In contrast, Gonzales’s special
assistant from mid-2005 through August 2007 told us that both she and the
personal assistant retrieved classified documents from the safe for Gonzales to

       19 Gonzales told us he had a total of two personal assistants and three special

assistants who served at various times over the course of his tenure as Attorney General.



                                              15
                                              15
review, and then returned the documents to the safe when Gonzales was
finished, although this happened only a few times.

      Gonzales stated that he would either open the safe himself or ask an
assistant to open it for him. Both the special assistant from mid-2005 through
August 2007 and the personal assistant who worked for Gonzales from August
2006 through Gonzales’s departure as Attorney General told us they sometimes
opened the safe and waited while Gonzales looked through its contents for
materials he wished to review. The special assistant also told us that she never
saw Gonzales personally open the safe. However, as noted above, Gonzales’s
special assistant during his first 4 months as the Attorney General told us that
Gonzales used the safe daily and that she saw him open it several times.

       Gonzales’s special assistant from mid-2005 through August 2007 told us
that all documents in the OAG safe appeared to be marked with cover sheets.
She also told us that all the materials in the safe appeared to be “opened and
read,” and she did not remember seeing any double-wrapped packages stored
there.

      We asked Gonzales whether he believed it was appropriate to store
TS/SCI materials in a safe in which staff without the requisite clearances could
access them. Gonzales stated that he never gave “conscious consideration” to
the fact that people who were not read in to certain programs would have
access to documents related to those programs. He emphasized that his
assistants were “trusted people” who, with the exception of one of the personal
assistants, had worked for him at the White House. Further, Gonzales said he
did not equate access to the safe with access to the notes because the notes
were double-wrapped. He also said he doubted his assistants would open and
read the contents of an envelope marked “AG – EYES ONLY.”

        Gonzales also told us that while he had no specific policy prohibiting his
staff from opening the safe in his absence, his “expectation” was that no one
would open the safe while he was not there. Gonzales said that his staff had
no cause to open the safe without him asking them to.

      However, Gonzales’s special assistant from mid-2005 through August
2007 told us about one instance in late 2006 when she and the personal
assistant were asked by the former Deputy Chief of Staff to conduct a search of
OAG documents pursuant to a Freedom of Information Act (FOIA) request. She
stated that she and the personal assistant were instructed to search the safe
“document by document,” including any classified materials, and that they
“looked through every single thing in the safe.” The special assistant stated
she was not sure Gonzales knew about the search and thought he may have
been out of town. The personal assistant told us that he did not pay much




                                        16
                                        16
attention to the documents in the safe and did not recall accessing the safe
other than in connection with requests from Gonzales. 20

      Gonzales said that he had no recollection of OAG staff ever searching the
OAG safe in response to a FOIA request, nor of being told that such a search
had ever been conducted during his absence.

              2.     Gonzales’s statements to White House attorneys and
                     Justice Department officials about the notes

      Gonzales told us that he retrieved the handwritten notes about the NSA
surveillance program from the safe outside his office in either late May or June
2007, after former Deputy Attorney General Comey testified before the Senate
Judiciary Committee on May 15, 2007. In his testimony, Comey discussed the
events surrounding a March 10, 2004, visit by Gonzales and White House
Chief of Staff Andrew Card to the George Washington University Hospital to see
Attorney General Ashcroft about Comey’s decision not to certify the NSA
surveillance program. Gonzales told the OIG that after Comey testified,
Gonzales informed White House Counsel Fred Fielding that he had notes
memorializing his recollections of the March 10, 2004, meeting with
congressional leadership that preceded the hospital visit that day. Gonzales
told us he gave a copy of his notes to Fielding sometime after Comey’s
testimony.

      Fielding told the OIG that Gonzales had informed him sometime after
Comey testified that Gonzales had some notes concerning the March 10, 2004,
meeting, but that Gonzales “wasn’t sure where they were.” Fielding added that
Gonzales said he was not sure if he had left the notes at the White House or
had taken them with him when he left the White House to become the Attorney
General. Fielding stated that Gonzales later told him he had found the notes
and described for Fielding what the notes said.

       Gonzales provided the OIG with a similar account of his discussions with
Fielding concerning the whereabouts of the notes. Gonzales stated that after
he spoke with Fielding about the notes, Gonzales recalled “being a little
confused about where the notes were.” He said he may have told Fielding that
the notes might have been at home. Gonzales stated that he realized a week or
so later that the notes might be in the OAG safe by his office at the Justice




       20 Because neither of the assistants who conducted the FOIA review was read in to the
NSA surveillance program or the detainee interrogation program, we could not show them any
of the documents about the programs or ask descriptive questions about the documents to
ascertain whether they recalled seeing any of the documents during the FOIA review.



                                             17
                                             17
Department. Gonzales stated that he had his assistant open the safe for him,
and that he found the notes, double- wrapped, inside the safe. 21

      Fielding stated that he received a copy of Gonzales’s notes, although he
could not recall when. Fielding recalled that the notes were wrapped in one,
and possibly two, manila envelopes. The envelope (or envelopes) contained
only the copy of Gonzales’s handwritten notes, and no other documents.

       Gonzales told us that he personally brought the notes, double-wrapped,
to the White House and reviewed them with Fielding. Gonzales stated that
after meeting with Fielding he returned the notes to the OAG safe.

       Gonzales told us he also used the notes in connection with his
preparation to testify before a congressional committee in July 2007.
According to Steven Bradbury, Principal Deputy Assistant Attorney General for
the Office of Legal Counsel, Gonzales produced the notes to Bradbury and
other Department officials on July 19, 2007, as they helped prepare Gonzales
for his appearance before the Senate Judiciary Committee on July 24, 2007. 22
Gonzales stated that he recalled using the notes to prepare for a closed hearing
before the House Permanent Select Committee on Intelligence earlier that
month. Gonzales stated that he did not recall whether he used the notes in
connection with his preparation for one or both of the July 2007 hearings;
however, he stated that he discussed the notes with others only in the Justice
Command Center. 23

       Bradbury told the OIG that Gonzales informed him the notes “had not
always been kept in a safe.” Gonzales told us he did not recall making this or
any other statements to Bradbury concerning his handling or storage of the
notes. Gonzales also told us that while he did not recall bringing the notes
either to his residence or from his residence to his office, he was certain that he
had retrieved them from the safe by his office when he provided them to
Bradbury.


       21 We asked Gonzales whether his use of the term “wrapped” meant that the envelopes
were sealed, or merely meant that one envelope was enclosed in another. Gonzales stated that
he did not recall whether his general practice was to seal the envelopes after each time he
removed and returned the notes to the envelopes.

       22  Bradbury, who had been read in to the NSA surveillance program in February 2005,
stated to us it was evident to him when he saw them that the notes contained classified
information.

       23 We also asked Gonzales whether he used the notes to prepare for testimony before
the Senate Judiciary Committee on February 6, 2006. That testimony in part concerned the
NSA surveillance program. Gonzales stated that he had no specific recollection of using the
notes to prepare for this hearing, but stated that he may have accessed them for this purpose.



                                              18
                                              18
       The OIG also interviewed two attorneys from the White House Counsel’s
Office about the notes. The two attorneys told us that they reviewed the notes
on July 24, 2007, immediately after several current and former congressional
leaders publicly disputed the accuracy of Gonzales’s testimony before the
Senate Judiciary Committee earlier that day regarding their reactions to the
March 10, 2004, White House meeting.

       The White House Counsel’s Office attorneys, both of whom had been read
in to the NSA surveillance program, told us that when they reviewed the notes
they realized that the notes might contain classified information. The two
attorneys said that they and White House Counsel Fielding met with Gonzales
on July 25, 2007, to discuss his handling of the notes. The meeting lasted
approximately 15 minutes. The two White House Counsel’s Office attorneys
made contemporaneous notes of their July 25 meeting with Gonzales, and they
provided these notes to the OIG.

       Their contemporaneous notes of the meeting state that Gonzales told the
White House Counsel’s Office attorneys that he had stored the notes in a safe
in his office while White House Counsel, and had taken the notes with him
when he left the White House for the Department of Justice. According to the
notes, Gonzales said he had taken no other documents from the White House.
The attorneys’ notes also state that Gonzales told them that at the Department
he stored the notes in a safe “just outside his office.” He said that his
immediate assistant had access to the safe, and was not sure if his personal
assistant also had access. According to the attorneys’ notes, Gonzales told
them he did not know if his office was a SCIF, but thought it was.

       The White House attorneys’ notes further state: “AG has taken them out
of safe; he thinks he may have taken them home to look at and probably kept
in safe at home”. The attorneys’ notes also state that Gonzales described how
he had wrapped the notes in three layers of envelopes and that “other materials
related to program (maybe DOJ materials)” were included in the outermost
envelope. According to the White House attorneys’ notes, Gonzales told them
there were no copies of the handwritten notes other than the one he had given
to Fielding. 24 Lastly, the White House attorneys’ notes state that Gonzales gave
his original notes to Bradbury after Bradbury told him that the White House
Counsel’s Office would be calling Bradbury about them, and because the Office
of Legal Counsel already had in its possession many documents related to the
NSA surveillance program.


       24   During the OIG’s interview of Gonzales, we also learned that the Department
photocopying machine that Gonzales had used to reproduce his notes for Fielding was not
certified for copying TS/SCI materials. The OIG brought this matter to the attention of the
Department’s Security and Emergency Planning Staff Director so that appropriate action could
be taken to “clear” the photocopier.



                                            19
                                            19
       After the July 25 meeting with Gonzales, the White House Counsel’s
Office attorneys decided to have Gonzales’s notes reviewed by the NSA for an
official determination of whether the notes contained classified information.
Two NSA officials reviewed the notes on July 26, 2007, and determined that 3
of 21 paragraphs in the notes contained TS/SCI information about the NSA
surveillance program, 1 paragraph contained TS/SCI information about signals
intelligence, and the remaining paragraphs were unclassified. The NSA officials
told the OIG that the three paragraphs about the NSA surveillance program
were TS/SCI based on references to operational aspects of the program, as well
as the use of the codeword for the program in conjunction with these
operational aspects. The NSA official responsible for classifying the notes told
the OIG that one aspect of the program explicitly referred to twice in the notes
was “zealously protected” by the NSA and that designating these references
TS/SCI was “not a close call.” 25

       The OIG showed Gonzales a copy of the White House Counsel’s Office
attorneys’ notes of the July 25, 2007, meeting. Gonzales told us he did not
recall telling the attorneys that he may have taken the notes home to look at
and had probably kept them in a safe there, but he said the statement was
consistent with his belief that if he had taken the notes home he would have
kept them in a safe.

       Gonzales stated that he had no specific recollection of bringing the notes
to his residence at any point, and said that he had no reason to bring the notes
to his residence to review them. Gonzales added that he would have had no
reason to look at the notes until he prepared to testify before the Senate
Judiciary Committee in February 2006. 26

      Gonzales also said the White House Counsel’s Office attorneys’
characterization in their notes of how Gonzales described triple-wrapping the
handwritten notes along with other program-related documents was not
consistent with his recollection. Gonzales told us he double-wrapped the
notes, and no other materials were included in the package when he gave it to
Bradbury.

              3.      Storage of other TS/SCI documents

      On August 27, 2007, Gonzales announced that he was resigning as
Attorney General, effective September 17. Bradbury told the OIG that on
September 14, 2007, Gonzales gave Bradbury two additional envelopes with

      25 The other classified information included in the notes that was deemed classified by

the NSA cannot be described in this unclassified report.
      26 As noted, Gonzales did not specifically recall reviewing the notes for the February

2006 hearing, but did recall using the notes to prepare for a hearing in July 2007.



                                              20
                                              20
documents to retain in the Office of Legal Counsel. Gonzales told us he
acquired these documents at different times during his tenure as Attorney
General and had stored them in the OAG safe along with the handwritten notes
relating to the NSA surveillance program. Gonzales stated that he did not
recall whether the documents had cover sheets or how the documents had
been wrapped or marked. Bradbury told us he maintained the documents in
the same condition as he had received them from Gonzales.

       The OIG reviewed these additional documents. The two envelopes
contained a total of 17 separate documents. The envelope containing
documents related to the NSA surveillance program bore the handwritten
markings, “TOP SECRET – EYES ONLY – ARG” followed by an abbreviation for
the SCI codeword for the program. The envelope containing the documents
relating to a detainee interrogation program bore classification markings
related to that program. Each document inside the envelopes had a cover
sheet and header-footer markings indicating the document was TS/SCI. The
documents related to the NSA surveillance program discussed in Gonzales’s
handwritten notes as well as to a detainee interrogation program. The
documents included Office of Legal Counsel opinions that discuss the legal
bases for various aspects of the compartmented programs, memoranda
summarizing the operational details of the programs, correspondence from
congressional Intelligence Committee leaders to Director of Central Intelligence
Hayden about one of the TS/SCI programs, a “talking points” memorandum
about one of the compartmented programs, and a draft legal declaration of a
high-ranking intelligence agency official relating to the NSA surveillance
program.

      As noted above, the NSA told the OIG that none of the special and
personal assistants and other personnel in the OAG with access to the safe was
read in to the NSA surveillance program. In addition, a SEPS official told the
OIG that only one of Gonzales’s assistants, and neither of the SPMs, had been
read in to the other compartmented TS/SCI program, a detainee interrogation
program, which was discussed in the documents described above.


IV.   OIG ANALYSIS

     In this section we present our analysis of Gonzales’s handling of the
handwritten notes and the 17 other TS/SCI documents discussed above.

      We concluded that Gonzales mishandled these classified documents in
various ways. Notwithstanding his vague recollections, the evidence showed
that Gonzales took the handwritten notes about the NSA program, which
contained TS/SCI information, to his Vienna residence. The evidence also
showed that although Gonzales had a safe at this residence, he did not use it,
and appears not to have known the combination to the safe at that time. In


                                       21
                                       21
addition, his residence was not furnished with a SCIF, the only proper facility
for storage of such SCI material. Moreover, the evidence showed that when
Gonzales brought the notes back to the Department, he kept them, as well as
other TS/SCI documents, in a safe outside his office. This safe was not located
in a SCIF, and therefore it was not an authorized location for the storage of
these TS/SCI documents. The OIG determined that several individuals without
the necessary clearances had regular access to this safe and these documents.

      We concluded that Gonzales’s handling of these documents violated
basic Department regulations and procedures governing the proper handling of
such classified materials.

      A.    Gonzales Took the Classified Notes to His Residence

       First, we concluded that the evidence showed that Gonzales knew or
should have known that his notes of the meeting with the congressional
leaders about the NSA surveillance program were classified. In his OIG
interview, Gonzales said that he was unaware of the classification level and
compartmented nature of the NSA program he referenced in the notes.
Gonzales also stated he did not recall thinking that the notes themselves were
classified. Rather, Gonzales stated that he regarded the notes as “sensitive”
because the President asked him to draft them, and thus he “treated [the
notes] as classified.”

       However, it is clear that the notes contained classified information.
Gonzales acknowledged that he created the notes to memorialize an official
briefing of congressional leaders concerning a sensitive NSA surveillance
program that Gonzales himself described as being of the highest level of
secrecy. While he told us that his notes were meant to capture the
congressional leaders’ reactions to the briefing, and not operational details of
the program, Gonzales in fact recorded in his notes specific operational terms
associated with the program, as well as the codeword used to identify the
program.

       Both the Office of Legal Counsel official and the attorneys from the White
House Counsel’s Office who were read in to the NSA surveillance program and
had considered the notes prior to the NSA conducting its classification review
told us that the notes appeared classified to them. In addition, the NSA official
who reviewed the notes for classification told us that one of these operational
terms was “zealously protected” by the NSA and that designating the references
to the term in the notes as TS/SCI was “not a close call.”

      Moreover, by the time Gonzales created the notes in March 2004, he had
reviewed other documents discussing operational details of the NSA
surveillance program. These other documents, which we cannot describe in
this unclassified report, were clearly marked as TS with SCI designations. His


                                       22
                                       22
familiarity with these documents should have put him on notice that his
handwritten notes, which referred to some of the same operational aspects of
the surveillance program, had to be handled in accordance with TS/SCI
protocols. In fact, the materials used during the March 10, 2004, briefing of
the congressional leaders – the very briefing Gonzales summarized in his notes
– bore TS markings with SCI designations.

       Further, Gonzales’s own actions indicated that he viewed the notes as
classified. Gonzales told us he double-wrapped the notes and marked them as
“AG – EYES ONLY – TOP SECRET.” While Gonzales told us that because he
regarded the notes as “sensitive” he treated them as classified, he wrote “Top
Secret” on the envelope containing the notes. We believe that writing “Top
Secret” on the envelope suggests that he knew the notes were in fact classified,
not simply that the notes were sensitive.

       The evidence further showed that Gonzales took these notes to his home
for some period of time after he became the Attorney General. Gonzales
brought the notes with him from the White House to the Department of Justice
on the evening of February 3, 2005, just after he had been sworn in as
Attorney General. Gonzales told us he did not recall whether he took the notes
home with him that evening. However, he also stated that he did not recall
accessing the safe just outside his office, receiving the combination to this safe,
or giving the notes to anyone to store while at the Department that evening. In
addition, he said that if he did not have the ability to store the notes in the safe
outside his OAG office that evening, he would have taken the notes home “of
necessity.” He also said that if he brought the notes home with him, he would
have brought them back to the Department the next day and had them stored
in the safe outside his office. However, he said he had no specific recollection
of doing any of this.

      When we asked him why on that first evening he did not leave the notes
in the Justice Command Center, a facility available to him for the storage of
TS/SCI materials, he said he did not recall thinking about it, and that he might
not have “felt comfortable” leaving the notes there at that time.

      The evidence established that Gonzales in fact did not have access to the
OAG safe the evening he was sworn in as Attorney General and took the notes
home. The OAG SPM told us she was present that evening and was the only
OAG staff person who would have had the combination to the safe in the
Attorney General’s suite. She stated that she never gave Gonzales the
combination to the safe and that she did not open that safe or any other
storage facilities for him that evening. None of Gonzales’s aides present with
him that evening said they stored the notes for him that evening or had the
combination to the safe that evening. We therefore concluded that Gonzales
took the notes home with him on the evening of February 3, 2005.


                                        23
                                        23
       The evidence further indicated that Gonzales kept the notes in a
briefcase at his residence that evening. Gonzales stated that if he took the
notes home on February 3, 2005, he would have left the notes in his briefcase
in his office at his residence, adding that he did not know if he had a safe in his
residence at this time. 27 As discussed above, although Gonzales had a safe in
his residence on February 3, 2005, the evidence showed that he did not use the
safe to store the notes. Gonzales told the OIG that he had no specific
recollection of ever using the safe in his residence. In addition, a DOJ Program
Manager responsible for coordinating the installation of a DOJ safe in
Gonzales’s residence after Gonzales became the Attorney General told us that
in early March 2005 Gonzales did not know the combination to the safe.
Further, the evidence showed that because later efforts to determine the
combination to the safe were unsuccessful, Gonzales was given a new safe
when he moved to a new residence several months later. We asked Gonzales
whether these facts concerning the safe in his Vienna residence changed his
recollection of how he handled the notes on February 3, 2005. He said they did
not.

       Moreover, Gonzales’s statements to Office of Legal Counsel official
Bradbury and to the White House Counsel attorneys also indicate that he may
not always have maintained the notes in a safe and may have taken the notes
to his residence. According to Bradbury, when Gonzales first told Bradbury
about the notes in 2007 Gonzales stated that the notes “had not always been
kept in a safe.” Gonzales said he did not recall making this statement to
Bradbury.

       According to contemporaneous notes of the White House Counsel
attorneys who interviewed Gonzales about his handling of the notes, Gonzales
told them that he “has taken them out of safe; he thinks he may have taken
them home to look at and probably kept in safe at home”. When we asked him
about this statement, Gonzales told us he did not recall telling the attorneys
this, but he also said the statement was consistent with his belief that if he had
taken the notes home he would have kept them in a safe. 28

      The OIG was unable to determine how long Gonzales kept the notes at
his residence. Gonzales told us he had no specific recollection of bringing the
notes from his residence to the Department, but said he would have returned
them to the Department the following day. However, the Security Programs
Manager told us that she was the only person in the OAG who knew the

       27   Gonzales told us that his briefcase had a lock, but that he did not always use it.
       28 The White House Counsel’s Office attorneys’ notes also suggest that Gonzales may
have taken the notes home again at some point after the night of February 3, 2005. However,
we found insufficient evidence to conclude that Gonzales brought the notes to his residence at
any time other than on the evening of February 3, 2005.



                                                24
                                                24
combination to the safe outside Gonzales’s office for some period of time,
although she was unable to recall how long this remained the case. She stated
that she did not open the safe for Gonzales on his first evening as Attorney
General or at any other time. She told us that at some indeterminate point
after Gonzales’s arrival as Attorney General, others in the OAG obtained access
to the safe and could have stored materials there for him. Gonzales’s first
special assistant upon his becoming the Attorney General told us she received
the combination from the SPM within the first couple of days of Gonzales’s
arrival at the Department, and that she may have given the combination to
Gonzales thereafter. Gonzales added little to the OIG’s ability to assess the
duration of the violation, stating only that if he had taken the notes home, he
would have brought them to the Department the next day, although he did not
recall doing so.

       In sum, we concluded that on February 3, 2005, when he was sworn in
as Attorney General, Gonzales took classified notes about the NSA surveillance
program from the White House to the Department of Justice and then to his
residence, where he kept them for an indeterminate period of time and stored
them there in his briefcase. We further concluded that although Gonzales had
a safe in his residence, he did not store the notes in it, and that in any event a
SCIF, the only proper storage facility for such TS/SCI materials, was never
installed there.

      B.    Storing the Notes and Other TS/SCI Materials Outside of a
            SCIF

      We also determined that when Gonzales brought the notes back to the
Department, he improperly stored them in a safe just outside his office that
was not suitable for the storage of these TS/SCI notes. In addition, we
determined that Gonzales inappropriately kept at least 17 additional TS/SCI
documents in this safe. These 17 documents were accessible to other
individuals who had access to the safe but who did not have the necessary
clearance to view the documents. These documents described legal and
operational aspects of the NSA surveillance program and a detainee
interrogation program, and were clearly marked as TS/SCI on cover sheets and
by header-footer markings.

      Gonzales told us he believed the Attorney General’s suite, where the safe
was located, was a “very secure area” with “very limited access.” He stated he
believed that the safe was an appropriate place to store the notes and the other
documents, and that no one had told him otherwise. However, Gonzales had
been briefed on the proper handling of SCI materials, including the
requirement that SCI materials be stored in a SCIF. Gonzales told us he did




                                        25
                                        25
not ask anyone whether the safe satisfied this requirement, nor did he ever ask
whether the OAG had a SCIF. 29

       By storing the notes and the other TS/SCI documents in the safe outside
his office instead of in a SCIF, Gonzales also made them accessible to
individuals not cleared into the two compartmented programs. We found that
at least five members of the OAG staff – none of whom were cleared into the
NSA surveillance program – had access to the OAG safe, and had access to
some or all the NSA surveillance program documents. Further, four of those
OAG staff members had not been read in to the detainee interrogation program
that was the subject of some of the other documents stored in the safe.

       Gonzales told us that he never gave “conscious consideration” to the fact
that people who were not read in to certain programs would have access to
documents in the safe by his office related to those programs. He stated that
his assistants were “trusted people,” and that he did not equate access to the
safe with access to his notes about the NSA program because the notes were
double-wrapped. He also said he doubted his assistants would open and read
the contents of an envelope marked “AG – EYES ONLY” or with similar
restrictive language. However, the fact remains that several people on
Gonzales’s staff had access to the materials stored in the safe yet lacked
clearances for the NSA surveillance and detainee interrogation programs.
Moreover, we learned that two of Gonzales’s assistants may have gone through
all documents stored in the OAG safe in response to a FOIA request. 30

       C.     Justice Department Security Regulations

       Gonzales’s handling of the notes and the other classified documents
violated basic Department regulations and procedures governing the proper
handling of such classified materials.

      First, as noted above, in addition to his White House security briefing,
Gonzales received a briefing on the proper handling of SCI materials when he
became the Attorney General. Despite having transported the classified notes
about the NSA surveillance program from the White House to the Department

       29  The SPM for the OAG stated that she did not brief Gonzales on the handling of
classified documents within the OAG while he was the Attorney General. While the SPM has
responsibilities that are designed to prevent the mishandling of classified documents by
Department employees, the burden ultimately rests with the employee to ensure that classified
material is properly handled.
       30 As noted above, because neither of the assistants who conducted the FOIA review
was read in to the NSA surveillance program or the detainee interrogation program, we could
not show them any of the documents about the programs or ask descriptive questions about
the documents to ascertain whether they recalled seeing any of the documents during the FOIA
review.



                                             26
                                             26
on the same day of the briefing, he did not ask about how these notes could be
appropriately stored. Instead, the evidence indicates that he took them home
and stored them in his briefcase before bringing them back to the Department
at some point and putting them in a safe outside his office without inquiring
whether the notes could be stored in that safe.

      All Department employees are subject to the provisions of 28 C.F.R. Part
17, which are designed to ensure that National Security Information within the
Department is properly classified and handled. Under the authority of
Executive Order 12958, as amended, and 28 C.F.R. Part 17, the Department
also has promulgated a Security Program Operating Manual (Manual). The
Manual establishes security policies and operational procedures within the
Department for the protection of National Security Information, including the
substantive requirements for the handling of SCI. As a Department employee,
Gonzales was subject to the provisions of the Manual. Manual at 1-102.

       The procedures established in the Manual, and reinforced in security
briefings, provide that classified material must be either “under the personal
control of an authorized or appropriately cleared person” or “guarded or stored
in a locked security container,” typically a General Services Administration-
approved safe. However, regarding the handling of TS/SCI material, the
Manual provides that “SCI information may only be . . . stored within a
Sensitive Compartmented Information Facility (SCIF).” Further, “SCI material
must not be sent to a building that does not have a SCIF or to someone who
does not have access to a SCIF.” As discussed above, the Manual’s
requirement that SCI material be stored in a SCIF was covered in the SCI
briefing Gonzales received the day he became the Attorney General.

      We found that Gonzales violated these provisions by taking the notes
home and then later storing these notes, as well as other SCI documents, in a
safe not authorized to hold such materials. In these actions, he failed to
adhere to fundamental procedures for storing and handling TS/SCI materials.
He took these actions despite being briefed on the proper handling of SCI,
including the requirement that such material must be stored in a SCIF, and
being advised that the Justice Command Center was available to store SCI
materials. 31



        31 As noted above, although Gonzales stated that he was not aware his handwritten

notes were classified, we found evidence that he knew or should have known that they were
classified. However, his awareness of the document’s classification level is not relevant to
establishing whether he violated Department requirements for the proper handling of classified
information. Under the Manual, the state of mind of an employee who violates a security
requirement is a potential factor for other purposes, such as determining the applicable
reporting procedures and the imposition of sanctions. See e.g., Manual at 1-201, 1-302h; 1-
303c(6). According to the Director of SEPS, infractions short of a criminal violation could
                                                                                         (Cont’d.)

                                               27
                                               27
       As noted above, Gonzales’s conduct also allowed the documents to be
accessible to persons on his staff who were not authorized to see them. While
Gonzales told us he trusted his staff not to review the SCI documents in the
safe, his trust in staff members and his expectation about how they would
conduct themselves was not a substitute for his compliance with basic SCI
handling requirements. For example, there is evidence that two of Gonzales’s
assistants had to review all of the documents in the safe in response to a FOIA
request.

      The Federal Criminal Code contains statutes relating to the improper
handling of classified documents. 32 In light of Gonzales’s handling of these
documents, and in particular the handwritten notes which we found he
improperly brought to his residence, we provided our report to the
Department’s National Security Division for its review. After reviewing the
matter, the National Security Division declined prosecution.

      We have also provided our report to the Department’s Security and
Emergency Planning Staff and to the NSA for their review and any actions
related to our findings that these entities consider appropriate.


V.     CONCLUSION

      In sum, our investigation found that Gonzales mishandled classified
materials while serving as Attorney General. The evidence shows that he took
TS/SCI notes about the NSA surveillance program to his residence and
improperly stored them in a briefcase there for an indeterminate period of time.
When he brought the notes back to the Department, he stored these notes,
along with other highly classified documents about the NSA surveillance
program and a compartmented detainee interrogation program, in a safe
outside his office that was not authorized to hold these documents.



subject the employee to a range of disciplinary actions – from security awareness training re-
education to revocation of the employee’s security clearance – depending on the circumstances.

       32   For example, 18 U.S.C. § 1924 provides in relevant part:

       Unauthorized removal and retention of classified documents or material
       (a) Whoever, being an officer, employee, contractor, or consultant of the United
       States, and, by virtue of his office, employment, position, or contract, becomes
       possessed of documents or materials containing classified information of the
       United States, knowingly removes such documents or materials without
       authority and with the intent to retain such documents or materials at an
       unauthorized location shall be fined under this title or imprisoned for not more
       than one year, or both.



                                               28
                                               28
      Like all other Department employees, Gonzales was responsible for
safeguarding classified materials, familiarizing himself with the facilities
available to him in the OAG for storing these materials, and observing the rules
and procedures for the proper handling of classified documents. Our
investigation found that Gonzales did not fulfill these obligations and instead
mishandled highly classified documents about the NSA surveillance program
and a detainee interrogation program.




                                      29
                                      29
